March 30, 2001

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

A. KEITH STRANGE
VICE PRESIDENT, PURCHASING AND MATERIALS


SUBJECT:	     Audit Report - Safety and Security of the Postal Service Leased Trailer
              Fleet (Report Number TR-AR-01-002)

This report presents results from our audit of the safety and security of the Postal
Service leased trailer fleet (Project Number 00PA032TR001). The objectives of our
audit were to evaluate safety, security, and opportunities for cost savings.

Our audit projected that more than 25 percent (2,200) of the Postal Service’s leased
trailer population did not meet minimum federal safety standards because the Postal
Service did not have adequate procedures. In addition, there were no procedures to
verify compliance with maintenance requirements or safety standards, and leasing
contracts did not address the need for liability insurance. We also projected the Postal
Service could not account for $5 million in leased trailer inventory, and did not always
secure and protect trailers. Further, we projected the Postal Service could reduce costs
by more than $17.5 million over a five year period, by properly administering damage
claims on leased trailers, and improving internal controls over trailer use.

We recommended Postal Service management include requirements regarding safety,
maintenance, and liability insurance in contracts and establish procedures to account
for trailer inventory, secure and protect trailers, and update policies governing damage
claims. Management agreed with our recommendations and planned actions address
the issues in this report. Management’s comments and our evaluation of their
comments are included in the report.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have questions or need additional information, please contact Joe Oliva, director,
Transportation, at (703) 248-2317 or me at (703) 248-2300.



Debra S. Ritt
Assistant Inspector General
 for Business Operations

Attachment

cc: Anthony M. Pajunas
    J. Dwight Young
    John R. Gunnels 

Safety and Security of Postal Service                                  TR-AR-01-002
 Leased Trailer Fleet


                                    TABLE OF CONTENTS
Executive Summary                                                            i


Part I

Introduction                                                                 1


   Background                                                                1

   Objective, Scope, and Methodology                                         1

   Prior Audit Coverage                                                      2


Part II

Audit Results

   Safety                                                                    3

   Recommendations                                                           4
   Management’s Comments                                                     4

   Evaluation of Management’s Comments                                       5


   Security                                                                  6
   Recommendations                                                           8
   Management’s Comments                                                     8

   Evaluation of Management’s Comments                                       8


   Opportunities for Cost Savings                                           9

   Recommendations                                                         12
   Management’s Comments                                                   12 

   Evaluation of Management’s Comments                                     14 


Appendix A. Audit Locations                                                15 


Appendix B. Statistical Sampling and Projections for Leased Trailers       16 


Appendix C. Management's Comments                                          18 

Safety and Security of Postal Service                                                               TR-AR-01-002
 Leased Trailer Fleet


                                    EXECUTIVE SUMMARY
 Introduction 	                  Hauling by trailer is one of the most cost-effective ways to
                                 move large volumes of mail and related equipment. Every
                                 day, commercial trucking contractors haul trailers to and
                                 from mail facilities and the plants of large customers. The
                                 Postal Service has almost 15,000 trailers. Over 10,000 are
                                 leased, and the Postal Service spends more than
                                 $40 million per year for trailer leasing. We initiated our audit
                                 to evaluate the safety and security of the leased trailer fleet,
                                 and to identify opportunities for cost savings.




                                        Figure 1 – Commercial tractor with leased trailer at a mail facility.


 Results in Brief 	              Our audit projected that 25 percent or almost 2,200 of
                                 8,715 trailers did not meet minimum federal safety
                                 standards. Specifically, our inspections found bald tires,
                                 damaged or missing lights, reflectors, mud-flaps, doors,
                                 load restraint systems, and bumpers. We also found that
                                 1,515 trailers, or more than 68 percent of the trailers we
                                 projected as failing safety standards, did not have current
                                 safety inspections. In addition, many had missing or
                                 incomplete inspection, repair, and maintenance records.
                                 The trailers had safety deficiencies in part because Postal
                                 Service procedures did not adequately address safety. In
                                 addition, leasing contracts did not adequately address the
                                 need for liability insurance.

                                 Our audit also revealed the Postal Service is at risk of loss
                                 through trailer theft, damage, and vandalism because it is
                                 not protecting its leased trailer fleet. We projected the




                                                         i
Safety and Security of Postal Service                                              TR-AR-01-002
 Leased Trailer Fleet



                                 Postal Service could not account for more than $5 million in
                                 inventory and did not adequately safeguard trailers.

                                 In addition, we projected the Postal Service could reduce
                                 costs by approximately $3.5 million annually, or more than
                                 $17.5 million over a five-year period, by properly
                                 administering damage claims on leased trailers ($2 million),
                                 and improving internal controls over trailer use
                                 ($15.5 million). Finally, the Postal Service could recover
                                 approximately $7,300 in erroneous charges for replacement
                                 trailers, approximately $4,500 for excessive mileage
                                 charges; and more than $50,000 in unpaid detention fees.

 Summary of                      We recommend the vice president, Purchasing and
 Recommendations                 Materials, develop procedures and include, as part of
                                 standard contract language, requirements regarding safety,
                                 maintenance, and liability insurance—and establish controls
                                 to enforce contract provisions.

                                 We recommend the vice president, Network Operations
                                 Management, establish procedures to account for trailer
                                 inventory, establish adequate and secure trailer storage
                                 areas, update policies governing damage claims, prohibit
                                 storage in trailers leased for transportation, and resolve
                                 overdue detention charges. We also recommend the vice
                                 president instruct the Richmond Processing and Distribution
                                 Center management to analyze lease charges, recover
                                 overpayments, and implement controls to validate future
                                 charges. Finally, we recommend the Lancaster Processing
                                 and Distribution Center collect outstanding detention fees.

 Summary of                      Management agreed with our recommendations. They
 Management’s                    stated that they believed the Mail Transport Equipment
 Comments                        Service Center and National Trailer Lease contracts already
                                 required compliance with safety, maintenance, and liability
                                 insurance requirements. However, they also stated they
                                 would review and reinforce procedures to ensure all
                                 contracts addressed those requirements, and ensure
                                 contractors complied with safety, maintenance, and liability
                                 insurance provisions. In addition, management stated they
                                 would work to consolidate leased trailer information in a
                                 central database to better track and trace leased trailers;
                                 encourage storage in secure facilities when not cost
                                 prohibitive; revise Management Instruction PO-530-89-1,



                                                  ii
Safety and Security of Postal Service                                               TR-AR-01-002
 Leased Trailer Fleet


                                 Processing Trailer Damage Claims; and advise the field that
                                 mail transport equipment should not be stored in trailers
                                 leased for transportation unless temporarily staged for
                                 movement to another site. Management also stated they
                                 would issue instructions regarding the collection of detention
                                 fees, replacement trailers, mileage charges, and collection
                                 of overpayments; instruct the Mid-Atlantic Area Distribution
                                 Networks office to assess and recover excess payments;
                                 and forward our report to the vice president, Allegheny Area
                                 so he could recover overdue detention charges.

 Overall Evaluation of           Management’s comments were responsive to our findings
 Management’s                    and recommendations. We believe that the actions taken
 Comments                        and planned should correct the issues identified in our
                                 report.




                                                  iii
Safety and Security of Postal Service                                                TR-AR-01-002
 Leased Trailer Fleet


                                        INTRODUCTION
 Background                      Hauling by trailer is one of the most cost effective ways to
                                 move large volumes of mail and related equipment. Every
                                 day, commercial trucking contractors haul trailers to and
                                 from mail processing and distribution centers, airmail
                                 facilities, mail transport equipment service centers, bulk mail
                                 centers, and the plants of large customers. The Postal
                                 Service uses almost 15,000 trailers. Over 10,000 are
                                 leased at a cost to the Postal Service of more than
                                 $40 million per year.

 Objectives, Scope,              Our audit objectives were to evaluate the safety and
 and Methodology                 security of the leased trailer fleet, and to identify
                                 opportunities for cost savings.

                                 During our audit, we visited Postal Service Headquarters,
                                 distribution network offices, mail transport equipment
                                 service centers, bulk mail centers, and processing and
                                 distribution centers. Geographic locations of sites visited
                                 are shown in Appendix A. We observed Postal Service
                                 operations, analyzed federal law and regulations, reviewed
                                 leased trailer contracts and related records, and inspected
                                 leased trailers. We interviewed Postal Service personnel,
                                 including managers, contract transportation specialists,
                                 network specialists, and contractor service managers. We
                                 conducted statistical sampling and performed statistical
                                 analysis.

                                 To conduct sampling, we statistically selected 20 leased
                                 trailer contracts from a list of 74 compiled by Postal Service
                                 Headquarters. The 20 contracts were administered by
                                 19 Postal Service facilities. We inspected approximately
                                 20 trailers from each contract and noted safety deficiencies
                                 as appropriate. If there were fewer than 20 trailers per
                                 contract, then all were inspected. We examined the
                                 provisions of all 20 statistically selected contracts and noted
                                 those that omitted safety inspection, repair, and
                                 maintenance requirements. We also examined records at
                                 the facilities that administered contracts requiring
                                 maintenance records, and noted when required records
                                 were incomplete or missing. Our sample allowed us to
                                 statistically project results throughout the population of all
                                 facilities that leased trailers, and to a total nationwide
                                 statistical population of more than 8,700 trailers. Details of




                                                  1
Safety and Security of Postal Service                                              TR-AR-01-002
 Leased Trailer Fleet


                                 our sampling methodology are contained in Appendix B. In
                                 addition to sampling, we observed conditions outside our
                                 statistical population, and where necessary, noted those
                                 conditions as such.

                                 We conducted our audit between May 2000 and
                                 March 2001 in accordance with generally accepted
                                 government auditing standards, and included such tests of
                                 internal controls as were considered necessary under the
                                 circumstances. We discussed our findings with appropriate
                                 management officials, and included their comments, where
                                 appropriate.

 Prior Audit Coverage 	 Opportunities for Savings in Freight Rail Detention Costs,
                        (TR-AR-99-001), dated September 23, 1999, concluded, in
                        part, that the Postal Service could substantially reduce costs
                        by seeking reimbursement from customers who detained
                        trailers, and identified one mailer in the Allegheny Area who
                        incurred approximately $300,000 per year in detention
                        charges that were not paid back to the Postal Service.

                                 Southwest Area Expenditures for Extra Highway Trips Using
                                 Leased Equipment, (TR-AR-00-005), dated February 29,
                                 2000, concluded that excessive payments were made to
                                 highway contractors who leased equipment to provide extra
                                 trip service. We recommended the Postal Service recover
                                 approximately $848,000 in overpayments and correct
                                 contracting practices to avoid excessive expenditures in the
                                 future. Management agreed with our findings and
                                 recommendations, but disagreed with the magnitude of
                                 overpayments reported.




                                                 2
Safety and Security of Postal Service                                                TR-AR-01-002
 Leased Trailer Fleet


                                        AUDIT RESULTS
 Safety                          Our audit projected that 25 percent or almost 2,200 of 8,715
                                 trailers did not meet federal safety standards. Specifically,
                                 we found bald tires, damaged or missing lights, reflectors,
                                 mud-flaps, doors, load restraint systems, and bumpers, as
                                 well as bald tires. We also found that 1,515 trailers, or more
                                 than 68 percent of the trailers we projected as failing safety
                                 standards, did not have current safety inspections. In
                                 addition, we found missing or incomplete inspection, repair,
                                 and maintenance records.

                                 Title 49, Code of Federal Regulations, Section 396, requires
                                 that trailers be in safe and proper operating condition at all
                                 times, and have a safety inspection performed annually to
                                 ensure that frames, frame assemblies, suspension systems,
                                 axles, wheels, brakes, tires, and any other part of the trailer
                                 affecting proper operating condition is safe. The regulation
                                 also requires a sticker, decal, or other documentation
                                 certifying that the trailer passed inspection, and requires a
                                 record of inspection, repair and maintenance to be retained
                                 for a period of one year at the facility where the trailer is
                                 housed.

                                 The trailers had safety deficiencies, in part, because Postal
                                 Service contracting procedures did not adequately address
                                 safety standards, Postal Service facilities did not have
                                 procedures to verify contractor compliance with preventive
                                 maintenance requirements, and contract officer
                                 representatives did not enforce existing contract
                                 requirements. We statistically selected 20 of 74 leased
                                 trailer contracts and found that only 13 required preventative
                                 maintenance including safety compliance. Further,
                                 maintenance records for 7 of the 13 were incomplete or
                                 nonexistent. We also noted that leased trailer contracts did
                                 not address liability insurance. Although contracts for the
                                 operation of a motor vehicle specify that contractors must
                                 provide liability insurance, leased trailer contracts did not.

                                 Because the Postal Service does not have contract
                                 provisions that require contractors to comply with federal
                                 safety standards, does not enforce existing contract
                                 provisions, and because of uncertain liability coverage, the
                                 Postal Service could be exposed to legal action and loss.
                                 For example, the Postal Service is named in a potential




                                                  3
Safety and Security of Postal Service                                                   TR-AR-01-002
 Leased Trailer Fleet


                                 $6 million lawsuit involving a trailer that disengaged from its
                                 tractor and became involved in an accident resulting in
                                 personal injury.

 Recommendation 	                We recommend the vice president, Purchasing and
                                 Materials:

                                 1. 	 Require leased trailer contracts to address federal
                                      safety standards including safety inspections and the
                                      retention of inspection, repair and maintenance
                                      records.

 Management’s                    Management agreed with our recommendation and stated
 Comments                        they believed that the Mail Transport Equipment Service
                                 Center trailer contract and the National Trailer Lease
                                 contract already required contractors to provide a
                                 comprehensive maintenance program and to adhere to
                                 safety requirements. However, management stated that
                                 they would review and reinforce procedures to ensure all
                                 leased trailer contracts adequately address safety
                                 requirements and enforcement.

 Recommendation                  2. 	 Develop procedures to ensure contract officer
                                      representatives verify contractor compliance with
                                      leased trailer contract safety provisions.

 Management’s 	                  Management agreed with our recommendation and stated
 Comments 	                      they would establish procedures that required suppliers to
                                 provide documentation of preventative maintenance to the
                                 contracting officer or the contracting officer representative
                                 on a semi-annual basis to ensure contract compliance.

 Recommendation                  3.     Require leased trailer contracts to address liability
                                        insurance.

 Management’s                    Management agreed with our recommendation and stated
 Comments                        they believed that the Mail Transport Equipment Service
                                 Center and National Trailer Lease contracts already
                                 required contractors to establish and continually maintain
                                 effective liability insurance. However, management agreed
                                 to review and reinforce procedures to ensure leased trailer
                                 contractors comply with liability insurance requirements.




                                                     4
Safety and Security of Postal Service                                           TR-AR-01-002
 Leased Trailer Fleet




 Evaluation of                   Management’s comments were responsive to our findings
 Management’s                    and recommendations. We believe that the actions taken
 Comments                        and planned should correct the issues identified in our
                                 report.




                                                 5
Safety and Security of Postal Service                                                            TR-AR-01-002
 Leased Trailer Fleet




 Security	                       We projected the Postal Service could not account for more
                                 than 230 leased trailers costing about $24,000 each—or a
                                 total of more than $5 million. The Postal Service had
                                 several automated systems designed to account for fleet
                                 inventory. Among them were the Transportation Information
                                 Management Evaluation System, the Vehicle Transportation
                                 Analysis Performance System, and the On-Site Information
                                 System. However, the accountability problem was caused
                                 by personnel using antiquated manual systems instead of
                                 the automated systems. Consequently, trailer locations
                                 were not always known, and trailers worth several million
                                 dollars could have been lost or stolen.

                                 We also found the Postal Service did not have sufficient
                                 space to secure all trailers in areas that protected them from
                                 loss or damage. As a result:

                                 •	     Trailers were parked on public streets or in unsecured
                                        areas near Postal Service facilities. (Figures 2 and 3)

                                 •	     Trailers were parked too tightly in constrained areas
                                        where they received inadvertent damage. (Figure 4)

                                 •	     Overgrown trees at storage entry and exit points
                                        damaged trailers. (Figure 5)




                                        Figure 2 – Trailers parked in unsecured area near Postal Service
                                        facility due to space limitations.




                                                        6
Safety and Security of Postal Service                                                              TR-AR-01-002
 Leased Trailer Fleet




                                        Figure 3 – Trailers parked on public streets due to space limitations.




                                        Figure 4 - Trailers crowded into area too small for safe storage.




                                             DAMAGE

                                    Figure 5 – Trailer damaged by overhanging trees located at storage
                                    entry and exit points.




                                                        7
Safety and Security of Postal Service                                                  TR-AR-01-002
 Leased Trailer Fleet


 Recommendations 	               We recommend the vice president, Network Operations
                                 Management:

                                 4.     Implement written instructions
                                                                  	      to facility management
                                        requiring them to inventory and account for all leased
                                        trailers by utilizing automated systems.

 Management’s                    Management agreed with our recommendation and stated
 Comments                        they were currently in compliance as it related to providing
                                 instructions to field management to use automated systems.
                                 However, management pointed out that that all automated
                                 systems were not integrated and consequently, not reliable
                                 as an accurate source of leased trailer inventory.
                                 Management also stated they would work to consolidate
                                 leased trailer information in a central database that was
                                 integrated with other automated systems to better track and
                                 trace leased trailers.

 Recommendation                  5.     Establish and maintain adequate and secure trailer
                                        storage areas.

 Management’s                    Management generally agreed with our recommendation
 Comments                        and stipulated that in some large urban areas, adequate
                                 secure storage did not exist, and that the cost of obtaining
                                 secure storage areas was cost prohibitive and would offset
                                 any financial gains realized from reducing damage.
                                 However, management stated that they encouraged storage
                                 in secure facilities where possible.

 Evaluation of                   Management’s comments were responsive to our findings
 Management’s                    and recommendations. We believe that the actions taken
 Comments                        and planned should correct the issues identified in our
                                 report.




                                                    8
Safety and Security of Postal Service                                                   TR-AR-01-002
 Leased Trailer Fleet




 Opportunities for               The Postal Service could reduce costs by approximately
 Cost Savings                    $3.5 million annually, or by more than $17.5 million over a
                                 five year period, by not storing equipment in roadworthy
                                 trailers, and by properly administering damage claims. In
                                 addition, the Postal Service could recover approximately
                                 $7,300 in erroneous charges for replacement trailers,
                                 $4,500 for excessive mileage charges, and more than
                                 $50,000 in unpaid detention fees.

 Storage in Roadworthy           Trailers are used for two principal purposes—storage and
 Trailers                        transportation. Trailers used for storage cost about
                                 $125 per month, while trailers used for transportation cost
                                 more than $300 per month. Our audit projected 17 percent
                                 of trailers leased for transportation were used for storage
                                 instead of transportation, costing the Postal Service about
                                 $3.1 million more per year than necessary—or more than
                                 $15.5 million over five years. This inappropriate use of
                                 trailers also resulted in an overstated cost of transportation
                                 by the same amount. Facility personnel stated they
                                 preferred to use roadworthy trailers for storage because, if
                                 needed, the trailers could also be used for transportation.
                                 (See Figure 6.)




                                          Figure 6 – Roadworthy trailer used for storage.




                                                  9
Safety and Security of Postal Service                                                                   TR-AR-01-002
 Leased Trailer Fleet


    Damage Claims 	                 The Postal Service could reduce costs by more than
                                    $390,000 annually based upon fiscal year 2000 damage
                                    claims, or almost $2 million over a five-year period,1 by
                                    properly administering damage claims on leased trailers.
                                    Our audit revealed contractors were filing trailer damage
                                    claims against the Postal Service, who paid the claims
                                    without first determining who was at fault, or verifying the
                                    cost of the repairs.

                                    Paying claims without determining fault was the single most
                                    costly claims-processing shortcoming we identified.
                                    Generally, the Postal Service charged damage costs to the
                                    last Postal Service facility with trailer custody; however, our
                                    audit revealed trailer damage could have been caused by
                                    contractors. For example, mail transport equipment service
                                    centers are contractor-operated and use contract
                                    employees to load and unload trailers. Our analysis of
                                    damage claim records indicated the centers could be
                                    responsible for more than $390,000 in trailer damage per
                                    year. (See Figure 7.)




                                                                      DAMAGE
                                       Figure 7 – Trailer damage at a mail transport equipment service center.


                                    In addition to not determining who caused the damage to
                                    leased trailers, the Postal Service did not properly establish
                                    the monetary value of the damages sustained. Specifically,
                                    only 1 of the 19 Postal Service facilities we visited used a
                                    repair cost schedule to establish appropriate repair costs.




1
  The $2 million estimate is a linear extrapolation of a constant number of trailers and a constant damage claims rate
and amount over a five year period. The $390,000 estimate represents annualizing nine months of FY 2000 data
from mail transport equipment service centers.




                                                          10
Safety and Security of Postal Service                                               TR-AR-01-002
 Leased Trailer Fleet


                                 These claim processing deficiencies were caused because
                                 the Postal Service does not have effective claim processing
                                 policies. Although Postal Service Management Instruction
                                 PO-530-89-1, Processing Trailer Damage Claims, dated
                                 February 10, 1989, specifies procedures for processing
                                 claims, the document is outdated and is not generally used.
                                 As a result of ineffective claim processing procedures and
                                 outdated policy documents, the Postal Service may pay for
                                 damages it did not cause, or pay too much.

 Potential Recoveries 	          The Richmond Processing and Distribution Center may
                                 have paid approximately $7,300 more for trailers than
                                 required for the period January to August 2000. This cost
                                 was for temporary replacement trailers when principal
                                 trailers were returned to the leasing company for routine
                                 preventive maintenance. Contract provisions required the
                                 leasing company to supply replacement trailers without
                                 additional cost to the processing and distribution center.
                                 However, our audit revealed the center not only paid for
                                 replacement trailers, but also paid at a rate higher than the
                                 contract rate. These errors occurred because management
                                 did not validate invoice charges.

                                 The Richmond Processing and Distribution Center may
                                 have also overpaid about $4,500, for the period January
                                 through July 2000, for mileage charges that were not
                                 properly supported. Specifically, the center entered into a
                                 local contract to lease 12 trailers for a monthly fee plus
                                 mileage. However, management did not determine actual
                                 mileage, and did not require invoiced mileage to be properly
                                 documented. Instead estimated mileage figures were
                                 assigned. Our analysis of the four-month period from April
                                 through July 2000, showed charges were inconsistent,
                                 varied widely, and were improbable. For example, during
                                 the months of April and June, mileage charged for each of
                                 the 12 leased trailers was 2,000 miles and 1,500 miles
                                 respectively. (See Figure 9)




                                                 11
Safety and Security of Postal Service                                                     TR-AR-01-002
 Leased Trailer Fleet



                                      BILLING PERIOD          NUMBER OF LEASED     MILEAGE OR
                                          ENDING                  TRAILERS       MILEAGE RANGE
                                                                                  PER TRAILER

                                        April 25, 2000               12                2000


                                        May 25, 2000                  8                  0
                                                                      4               27-843


                                        June 25, 2000                12                1500


                                        July 25, 2000                9                   0
                                                                     3               376-1987



                                 Figure 9 – Analysis of Mileage Charged for Billing Period April 25 –
                                 July 25, 2000.

                                 Our analysis of available records for the period
                                 September 1, 1999, through July 27, 2000, identified more
                                 than $50,000 in uncollected detention fees billed to one
                                 large customer of the Lancaster Processing and Distribution
                                 Center. Postal Service requirements specify that when
                                 trailers are out of service for excessive periods, at the fault
                                 of the customer, the customer can be charged “detention”
                                 fees. These fees are used to offset the cost of leasing
                                 additional trailers to meet requirements. An example of
                                 excess delays during June 2000, were 77 trailers detained
                                 by customers totaling 223 business days. The Postal
                                 Service needed additional trailers to compensate for those
                                 excessively detained.

 Recommendations 	               We recommend the vice president, Network Operations
                                 Management:

                                 6.      Prohibit the use of transportation trailers for storage.

 Management’s 	                  Management agreed with our recommendation and stated
 Comments 	                      that mail transport equipment should not be stored in trailers
                                 that were leased for transportation unless it was being
                                 staged for transportation to another site. Management also
                                 stated that they would advise the field of the policy.




                                                         12
Safety and Security of Postal Service                                                TR-AR-01-002
 Leased Trailer Fleet


 Recommendation                  7. 	 Update Postal Service policies and procedures
                                      governing trailer damage claims to include provisions
                                      for determining who is responsible for the damage, and
                                      for establishing the monetary value of damage
                                      sustained.

 Management’s                    Management agreed with our recommendation and stated
 Comments                        that Postal Service Management Instruction PO-530-89-1,
                                 Processing Trailer Damage Claims, dated February 10,
                                 1989 was outdated, and that they would issue a revised
                                 publication and additional instructions to help the Postal
                                 Service determine responsibility for damage and the
                                 monetary value of damage sustained. Management also
                                 stated that the revised management instruction would
                                 specify a review process to ensure damage cost estimates
                                 and claims were accurate and reasonable.

 Recommendation                  8. 	 Develop and implement policy that requires validation
                                      of invoice charges for replacement trailers and trailer
                                      mileage prior to payment.

 Management’s                    Management agreed with our recommendation and stated
 Comments                        that contract language must be explicit regarding the
                                 responsibility for replacement trailers and the accuracy of
                                 mileage charges. Management also stated their national
                                 trailer lease contract addressed the issues, but they would
                                 issue instructions to the field to ensure all local contracts
                                 addressed the issues as well.

 Recommendation                  9.     Recover overpayments for replacement trailers and
                                        mileage from September 1999 to date.

 Management’s 	                  Management agreed with our recommendation and stated
 Comments	                       they would instruct the Mid-Atlantic Area Distribution
                                 Networks Office to review all present and previous claims
                                 for excessive cost, and initiate procedures to recover
                                 overpayments as applicable.




                                                   13
Safety and Security of Postal Service                                             TR-AR-01-002
 Leased Trailer Fleet


 Recommendation                  10. Collect “detention” fees from the customers of the
                                     Lancaster Processing and Distribution Center who
                                     excessively detained trailers.

 Management’s                    Management agreed with our recommendation and stated
 Comments                        they would forward our report to the vice president,
                                 Allegheny Area, so the vice president could recover all
                                 detention charges. Management also stated they would
                                 issue instructions to all Distribution Network Offices
                                 regarding the collection of detention fees.

 Evaluation of                   Management’s comments were responsive to our findings
 Management’s                    and recommendations. We believe that the actions taken
 Comments                        and planned should correct the issues identified in our
                                 report.




                                                 14
Safety and Security of Postal Service                     TR-AR-01-002
 Leased Trailer Fleet


                            APPENDIX A. AUDIT LOCATIONS

Distribution Network Offices:

Capital Metro
Mid Atlantic
Northeast
Allegany
Southwest
Pacific
Western
Mid West
New York Metro

Mail Transport Equipment Service Centers:

Washington, D.C.
Philadelphia, Pennsylvania
Atlanta, Georgia
Dallas, Texas
Los Angeles, California
New Jersey, New Jersey
Long Island, New York

Bulk Mail Centers:

Washington, D.C.
Springfield, Illinois
Dallas, Texas
Los Angeles, California
Kansas City, Missouri
Des Moines, Iowa

Processing and Distribution Centers:

Baltimore, Maryland
Richmond, Virginia
Lexington, Kentucky
Lancaster, Pennsylvania
Albuquerque, New Mexico
Las Vegas, Nevada




                                        15
Safety and Security of Postal Service                                              TR-AR-01-002
 Leased Trailer Fleet


                                APPENDIX B
                  STATISTICAL SAMPLING AND PROJECTIONS
                           FOR LEASED TRAILERS
Purpose of the Sampling

The overall objective of this audit was to evaluate the safety and security of the leased
trailer fleet, and identify opportunities for cost savings. In support of this objective, the
audit team employed a two-stage random attribute sample design that allowed a
statistical projection of results from individual contracts for trailer leases.

Definition of the Audit Universe

The audit universe consisted of 74 contracts, with a combined total of 8,715 trailers.
The composite list from the Postal Service’s “regular trailer leasing” and “mail transport
equipment service center trailer information” lists was the source of the universe data.

Sample Design and Modifications

The audit used a two-stage random (at both stages) sample design. Twenty contracts,
and generally 20 trailers per contract, were randomly selected for review. If there were
fewer than 20 trailers per contract, then all were examined.

Statistical Projections of the Sample Data

All attributes are projected to the universe of 74 contracts and 8,715 trailers. The
sample data were analyzed using the formulas for estimation of a population proportion
for a two-stage random (at both stages) sample, as described in Elementary Survey
Sampling, Scheaffer, Mendenhall, and Ott, c.1996.

Attribute 1: Were the Trailers Accounted For?

Based on a projection of the sample results, we are 95 percent confident that up to
7.1 percent, or 621 trailers, failed to be accounted for. The unbiased point estimate is
2.7 percent, or 239 trailers.

Attribute 2: Were the Trailers Used Per Lease Intent?

Based on a projection of the sample results, we are 95 percent confident that up to
32.4 percent, or 2,819, trailers were not used per lease intent. The unbiased point
estimate is 17.1 percent, or 1,494 trailers.




                                              16
Safety and Security of Postal Service                                          TR-AR-01-002
 Leased Trailer Fleet


Attribute 3: Did the Trailers Have Current Inspection Stickers?

Based on a projection of the sample results, we are 95 percent confident that up to
32.9 percent, or 2,868, trailers failed to have current inspection stickers. The unbiased
point estimate is 17.4 percent, or 1,515 trailers.

Attribute 4: Were There Any Noticeable Safety Violations?

Based on a projection of the sample results, we are 95 percent confident that between
5.2 percent and 44.8 percent, or 453 to 3,909 trailers, did not meet minimum safety
standards. The unbiased point estimate is 25 percent, or 2,182 trailers.




                                            17
Safety and Security of Postal Service                  TR-AR-01-002
 Leased Trailer Fleet


                   APPENDIX C. MANAGEMENT'S COMMENTS




                                        18
Safety and Security of Postal Service        TR-AR-01-002
 Leased Trailer Fleet




                                        19
Safety and Security of Postal Service        TR-AR-01-002
 Leased Trailer Fleet




                                        20
Safety and Security of Postal Service        TR-AR-01-002
 Leased Trailer Fleet




                                        21
Safety and Security of Postal Service        TR-AR-01-002
 Leased Trailer Fleet




                                        22
Safety and Security of Postal Service        TR-AR-01-002
 Leased Trailer Fleet




                                        23
Safety and Security of Postal Service        TR-AR-01-002
 Leased Trailer Fleet




                                        24
Safety and Security of Postal Service        TR-AR-01-002
 Leased Trailer Fleet




                                        25
Safety and Security of Postal Service        TR-AR-01-002
 Leased Trailer Fleet




                                        26
Safety and Security of Postal Service        TR-AR-01-002
 Leased Trailer Fleet




                                        27
Safety and Security of Postal Service        TR-AR-01-002
 Leased Trailer Fleet




                                        28
Safety and Security of Postal Service        TR-AR-01-002
 Leased Trailer Fleet




                                        29
Safety and Security of Postal Service        TR-AR-01-002
 Leased Trailer Fleet




                                        30
Safety and Security of Postal Service        TR-AR-01-002
 Leased Trailer Fleet




                                        31
Safety and Security of Postal Service        TR-AR-01-002
 Leased Trailer Fleet




                                        32
Safety and Security of Postal Service        TR-AR-01-002
 Leased Trailer Fleet




                                        33
Safety and Security of Postal Service        TR-AR-01-002
 Leased Trailer Fleet




                                        34
Safety and Security of Postal Service        TR-AR-01-002
 Leased Trailer Fleet




                                        35
Safety and Security of Postal Service        TR-AR-01-002
 Leased Trailer Fleet




                                        36
Safety and Security of Postal Service        TR-AR-01-002
 Leased Trailer Fleet




                                        37
